          -




              u.s~DEPARTMENTOF COMMERCEr:~~
                            Office of Inspector General           \~~).




                                                         PUBL\C

                                                         RELEASE


                 ECONOMIC DEVELOPMENT
;.
     ;.                 ADMINISTRATION

               Affiliated Tribes of Northwest Indians
                Economic Development Corporation
                               Shoreline, Washington
                        .           Revolving Loan Fund
                            EDA Grant No. 07-39-03859


                 Audit Report No. STL-14142-1-0001     / August ;Z001




                            Office of AJldits, Seattle Regional Office
.':-..   ,r.       .

    '.   .     '. u.s. Department of Commerce                                                                                     Audit Report STL-14142-14JOO1
                "Office of Inspector          General                                                                                                August 2001

                                                                         TABLE OF CONTENTS


                EXECUTIVE SlJMMARY                                                                                    ,               ,                   '."   i


                IN1'RODUCTION                                ,                                                                 .."                              1


                OBJECTIVES, SCOPE,AND METHODOLOGY                                                                                                               2


                FINDINGSAND RECOMMENDATION                                                                                                    ...               3


                       TIIE TRIBAL CORPORATION IS NOT PREPARED'

                          TO UTILIZETIIERLFGRANT''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''                                  3


                                 RLF AdministrativeRequirements

                                  Are Not Complete          ...,                                                          "''''''''''''''''''''''               3


                                 The CorporationCould Not Assure the

                                  Availability of MatchingFunds                                                                                                 5


                                 Tribal Corporation Response                                                                                         ""         6


                                 01 G Comments                               ..~                           "                                                    6


                       RLF GRANT SHOULDBE CLOSELYMONITORED '''''''',''''''''''''''''''''''''''''''''''''                                                        7


                       RECOMMENDATION..                                        "'"''''''''''''''''''''''                                                        7


                APPENDIX- The CorporationResponseto the DraftReport
.'         "
     ,'.           u.s. Department of Commerce                               Audit Report STL-14142-1-0001
               ,   Office of Inspector General                                                  AUf!ust 2001

                                                 EXECUTIVE SUMMARY

                   The Affiliated Tribes of NorthwestIndiansEcononiicDevelopmentCorporation(the
                   Corporation)is a non-profit corporationrepresenting55 federallyrecognizedTribes in
                   the states of Washington,Oregon,Idaho, Alaska,Montana,and California. The
                   Corporationwas incorporatedin 1997to promotethe economicdevelopmentof tribal
                   resources by providing technical assistance,education,coordination,and or
                   administrationto developmentprojects.     .




               In September 1998, EDA awarded the Corporation a $300,000 grant, No. 07-39-03859
               under Title IX of the Public Works and Economic Development Act of 1965, as
               amended, to fund a revolving loan fund. The revolving loan fund (RLF) was fonned to
               address the lack of access to credit and capital that was identified as a significant
               impediment to economic development on sovereign tribal lands. The grant required the
               Corporation to provide $100,000 in matching funds so that the total RLF capitalization
               would be $400,000. No funds for administration, estimated at an additional $100,000,
               was provided by the grant. The grant award period is from September 22, 1998, to
               September 30,2001.

               As of March 2001, the Corporation had not made any disbursements from the $300,000
               federal funds and had not finalized any RLF loans. We perfonned a limited scope
               compliance audit of the RLF at the Corporation office in Shoreline, Washington, during
               February and March 2001. The purpose of our audit was to determine the reasons for the
               Corporation's delays in drawing down the RLF grant award and to assess its compliance
               with applicable RLF administrative requirements.

               We found that the Corporation has not complied with RLF program requirements and
               that its future capability to administer the RLF in compliance with the grant tenns and
               conditions is highly questionable. The Corporation currently lacks adequate funds for its
               administrative operations, has not completed grant requirements necessary to disburse
               federal funds, and cannot assure that matching funds can be secured for new loans that
               are being developed. The Corporation is trying to complete its first loan before the grant
               expires on September 30, 2001. However, as of the end of our field work EDA
               administrative requirements necessary to draw on the grant funds had not been
               completed, no fonnal project funding application for the initial loan had been received,
               and the Corporation's loan review board had not approved any projects.

               In response to our draft report, the Corporation generally concurred with the deficiencies
               as stated in OurTeport. However, the Corporation stated that subsequent to the end of our
               fieldwork the noted deficiencies were corrected by (1) using administrative funds to hire
               a fulltime RLF program director; (2) completing an EDA approved RLF Administrative
               Plan; (3) obtaining the required matching funds; (4) completing the first RLF loan; and
               (5) initiating a second RLF loan to be completed by September 2001. The Corporation
.'       "

     ,        u.s. Department of Commerce                                 Audit Report STL-UU2-1-0001
             .Office of Inspector General                                                  . August 2001



             stat(Xfthat the actions taken justify EDA extending the period of award and releasing the
             RLF funds. The Corporation's response is summarized in the body of the report and
             provided, without attachments, in the Appendix to this report.

             Although the EDA grant was awarded two and one-half years ago and the economic
             development objectives of the program have not yet been met, the Corporation has made
             significant progress since March 2001. The Corporation has addiessed most of the
             deficiencie$ included in our draft report, yet the risk that the Corporation will make
             imprudent last minute loans to disburse funds before the EDA grant expires in September       .

             2001, remains relatively high. In order to reduce the risk, and to allow the RLFto
             achieve its stated objectives, we are recommending that EDA's Seattle Regional Director
             extend the award period for one additional year, and closely monitor the Corporation's
             RLF loan program to ensure that program requirements and future disbursement time
             schedules are met. Should the Corporation fail to meet the amended RLF program
             requirements, we then recommend that the Director immediately act to terminate the
             program and deobligate any remaining RLF grant funds.




                                                        11

                                                                                                                      .' '. -...
         ,   ,



.'               ,<
     .                u.s. Department of Commerce                                    Audit Report STL-14141-1-0001
                      Office of Inspector General                                                       August 1001

                                                          INTRODUCTION

                      The Affiliated Tribes of Northwest Indians Economic Development Corporation (the
                      Corporation) is a non-profit corporation representing 55 federally recognized Tribes in
                      the states of Washington, Oregon, Idaho, Alaska, Montana, and California. The
                      Corporation was incorporated in 1997 to promote the economic development of tribal
                      resources by providing technical assistance, education, coordination, and or
                      administration to development projects.

                      In September 1998, the Economic Development Administration awarded the Corporation
                      a $300,000 grant, No. 07-39..03859 under Title IX of the Public Works and Economic
                      j)evelopment Act of 1965, as amended, to fund a revolving loan fund (RLF). The grant
                      required the Corporation to provide $100,000 in matching funds, which brought the total
                      RLF capitalization to $400,000. No funds for administration were authorized by the
                      grant, so the initial administrative expenses (estimated at an additional $100,000) were to
                      be provided by the Corporation. The grant award period is from September 22, 1998, to
                      September 30,2001.

                      The EDA funded RLF is one of three programs operated by the Corporation, the other
                      two being a tribal economic development program and an energy opportunities
                      development program. The RLF program was formed to address the lack of access to
                      credit and capital that was identified as a significant impediment to economic
                      development on sovereign tribal lands.

                      As of March 2001, the Corporation had not drawn any federal funds and had not made
                      any loans. The Corporation's first loaD.was in process, but not finalized at the time we
                      completed fieldwork. The project was to construct four rental units at an existing tribal
                      coastal resort with an estimated total cost of $450,000, with the tribe contributing
                      $100,000, the RLF providing $100,000, ($75,000 of federal funds and $25,000 in
                      matching funds), and a private bank contributing $250,000.




                                                                   1

. --~.        -...




         .;          "
               .,.        u.s. Department of Commerce                                    Audit Report STL-14142-I-0001
                          Omce of Inspector General                                                        August 2001

                                             OBJECTIVE, SCOPE, AND METHODOLOGY

                         We performed a limited scope complianceaudit of the RLF at the Corporation's office in
                         Shoreline,Washington,during Februaryand March 2001. The purpose of our audit was
                         to determinethe reasons for the Corporation'sdelays in making loans and to assessthe
                         Corporation's compliancewith applicableRLF administrativerequirements. To achieve
                         this objective,we examinedpertinentEDA and Corporationrecords, and intervi.ewed
                         agency and granteeofficials as deemednecessary. We reviewedCorporation
                         administrativerecords and correspondencefrom July 1998throughMarch 2001. Except
                         as reported, we did not review the Corporation's compliancewith other federal
                         regulations due to the limitedscopeof our review.

                         We examined the Corporation's most recent annual single audit report that was for the
                         period April 1998 to December 1999. This audit was conducted by an independent
                         certified public accountant in accordance with generally accepted accounting principles.
                         The report disclosed no material internal control weaknesses. Since no loans had been
                         made by the Corporation at the time of our review, we reviewed the Corporation's
                         activity to obtain necessary funding to adequately ope~ate the RLF program and the
                         processing of its most promising applicant to determine Corporation actions in analyzing,
                         evaluating-and approving the loan application.

                         We did not rely on computer-processed data as a basis for making any audit conclusions.
                         Consequently, we did not conduct tests of either the reliability ofthe data or the controls
                         over the computer-based system that produced the data.

                         Except as disclosedin this report,the results of our tests indicate that, with respectto -the
                         items tested, the Corporation complied in all material respects with applicable federal
                         laws and regulations. With respect to items not tested, nothing came to our attention that
                         caused us to believe that the Corporation had not complied in all material respects with
                         those laws and regulations.

                         The audit was conducted in accordance with Government Auditing Standards iss1.ledby
                         the Comptroller General of the United States, and was performed under the authority of
                         the Inspector General Act of 1978, as amended, and Department Organization Order 10...
                         13, dated May 22,1980, as amended.




                                                                      2

                                                                                        n          ---   - --




     ."-.




.'          " .
                  u.s. Department of Commerce                                  AudiJ Report STL-14142-1-0001
                  Office of Inspector General                                                     AUK-ust2001

                                         FINDINGS AND RECOMMENDATION

                  THE TRIBAL CORPORATION IS NOT PREPARED
                  TO UTILIZE THE RLF GRANT

                  As of March 2001, the Corporationhas not made any RLF loans using the $300;000of
                  federal funds awarded in September1998,two and a half years earlier. At the time of the
                  award the Corporation did not have adequateadministrativefunds to staff the program,
                  had not completed necessary administrativerequirementsto operatethe program, and did
                  not have the required matchingfundsto make loans. The Corporationaddressedthese
                  requirements only after obtainingthe EDA award and thereforehave not met EDA's
                  timeline requirement for disbursingRLF funds.

                  RLF Administrative Requirements
                  Are Not Complete

                  The Corporation's ability to adequately operate the RLF program is questionable.
                  The Corporation estimated that about $100,000 in administrative funds would be required
                  to adequately begin operating the RLF. In the two and a half years since the award, the
                  Corporation has been unsuccessful in obtaining sufficient administrative funds to begin
                  operations, has not completed an approved Administrative Plan to fund loans, and has yet
                  to obtain a formal loan request from its initial project borrower.

                  The Corporation's grant proposal estimated that administrative expenses of about.
                  $100,000 would be necessary begin the RLF program, mainly to fund the banking and
                  finance director position.. The EDA award does not provide or allow any of the $400,000
                  award to be used for administration. Therefore, the $100,000 of estimated administrative
                  costs was to be provided by the Corporation. The award also requires that the RLF
                  operate under an Administrative Plan that is approved by the Corporation's governing
                  board, and that (1) is tailored to support the implementation of the _area's Economic
                  Adjustment Strategy; (2) provides for administrative clarity, continuity and consistency;
                  and (3) is acceptable to EDA. Specific guidance to grant recipients is published in
                  EDA's RLF Plan Guidelines, which includes EDA evaluation criteria, format and
                  content, and required topics to be addressed in adopting a strategy and operational
                  procedures.

                  As of March 2001, two and a half years after the EDA grant award, the necessary
                  administrative requirements have not been completed. In August and October 2000, the
                  Corporation obtained two private grants totaling $90,000 of which $65,000 was allocated
                  toward administrative expenses. The grant received in August was for $40,000 from a
                  private nonprofit charitable organization for general support of the RLF. The
                  Corporation's executive director stated that $25,000 may be allocated as matching funds
                  to the Corporation's first RLF loan, and the remaining $15,000 would be allocated for
                  administrative expenses. The grant received in October, ftom another private nonprofit
                  organization, was $50,000 for RLF administrative expenses. This award was the first
                                                     .          3
..   "   .   .
                  u.s. Department of Commerce                                    Audit Report STL-14142-1-0001
                  Office of Inspector General                                                       AUKust 2001

                 year payment of a three-year award totaling $120,000. The year-one award ($50,000)
                 requires no COIporation matc~ however, year two ($40,000) and year three ($30,000)
                 requires the COIporation to provide a one-for-one match from new or existing fund
                 sources. At the time of our review, obtaining the remaining $35,000 in administrative
                 funds ($100,000 budgeted less $65,000 obtained) was not assured.

                 According to the COIporation executive director, an application for a $100,000 loan had
                 been made to the Rural Community Assistance Corporation, a non-profit organization.
                 providing technical assistance in housing development, environmental infrastructure, and
                 community development. Subsequent to our dr.aftaudit report, a $100,000 loan ftom the
                 RCAC was obtained in June 2001. With these funds the Corporation now has the
                 necessary administrative and matching funds required by the EDA grant.

                 The administrative requirements necessary to obtain EDA approval to begin operating the
                 RLF were not complete. The RLF guidelines require an approved Administrative Plan
                 that describes the RLF operating policles and procedures. The COIporation's plan was
                 inadequatein these areas. The EDA reviewedthe draftplan in early April and               .
                 determined that the draft did not follow the EDA plan fOmlat as recommended by the
                 RLF Guidelines, lacked actual Corporation policies and procedures that would be used by
                 the RLF, and lacked approval by the Corporation's governing board. In addition, the
                 draft plan lacked important detail such as how RLF services would be marketed and how
                 future prospective loans would be identified and developed. For example, the
                 COIporation's plan lacked detail in how the RLF services would be marketed. Under the
                 marketing section, the plan stated ''Meets Customer Needs" and assigned the
                 responsibility to the Director of Banking and Financial Services. The plan also did not
                 identify the focus ofRLF services, but covered all of the 55 eligible tribes, even though
                 the executive director stated that 8 of the 55 tribes had sufficient economic resources and
                 financial knowledge and ability to plan and fund their own business development
                 projects.

                 The COIporationwas processing its first RLF loan to providepartial funding to build four
                 additionalrental units at an existingtribal coastalresort in time for the 2001 tourist .

                 season. However, the loan documentation lacked a formal (signed) RLF loan application
                 from the tribe, and the project had not been formally reviewed and approved by the.
                 COIporation'sloan review board.     .



                 The Corporation's executive director partially attributed the slow progress of the RLF to
                 the lack of administrative funds and the rapid turnover in COIporation staff. The first
                 full-time executive director left in December 2000, after only one year in the position.
                 The position of director of banking and finance, the official primarily responsible for the
                 RLF operation, had also been vacant. The prior director left in early 1999, and an acting
                 director, who is paid as funds become available,has been used since then. . A full-time
                 director was recently hired and began work in April 2001.

                                                              4
                                                                                                                ----


J
    .
   " ­
                u.s. Department of Commerce                                   Audit Report STL- ]4142-1-0001
                Office of Inspector General                                                      AUl!ust 2001

                The lack of administrative continuity has limited the progress of the RLF and may
                continue to delay the program in the future. Even with a new director of banking and
                finance, the ability of the RLF to complete administrative requirements and make loans
                prior to the current grant expiration is highly questionable.

                The Corporation Could Not Assure the
                Availability of Matching Funds

               At the time of our audit, two and a half years after the award, the Corporation was unable
               to secure the $100,000 in required matching funds, had yet to complete its first RLF loan,
               and therefore had not complied with grant and program requirements. The EDA has
               allowed program flexibility, but the lack of matching funds made it unlikely that the
               program would be operating as required before the grant expires in September 2001.

               EDA's RLF Standard Terms and Conditions and its Administrative Manual both provide
               specific guidance regarding the source and use of matching funds. The Administrative
               Manual requires that matching funds benonfederal and be available at the time RLF
               loans are made. The Standard Terms and Conditions require that loans made at a rate not
               less than 50 percent within 18 months, 80 percent within two years and 100 percent
               within three years. However, EDA officials stated that guidance from its headquarters is
               to allow maximum flexibility in the operation of the grant assistance program, especially
               to economically depressed areas. Therefore, EDA officials allowed the Corporation to
               fulfill its matching fund requirements by borrowing funds from banks and using federal
               loan funds or grant funds (only if authorized by legislation) from other federal programs,
               as long as the objectives of the borrowed funds are close to EDA's RLF program
               objectives. The disbursement requirements are also flexible, in that the grant terms and
               conditions allow full disbursement to be extended to five years after the grant award.

               Even with the relaxed matching fund requirements allowed by EDA, the Corporation had
               not secured all of its required matching funds. At the time of our review, the Corporation
               was in the process of completing its first RLF loan. The proposed loan is to build four
               additional cabins at an existing coastal tribal resort at an estimated cost of$450.000. The
               RLF would contribute $100,000 ($75.000 federal funds and $25.000 match). the tribe
               would contribute $100,000 plus the land, and a commercial bank would contribute
               $250.000. The Corporation obtained a $40.000 grant IToma private non-profit
               organization and could allocate $25.000 as the match for this loan. In addition, the
               Corporation has obtained a $25.000 line of credit, at about 10 percent interest, from
               another commercial bank that can also be used as matching funds. According to the
               Corporation's executive director, the grant and loan funds will not be used unless
               matching funds from other sources cannot be obtained.

               At the time of our audit, the Corporation had another loan request for $30.000 to fund
               pre-development activities (i.e. feasibility study, and preliminary design) for an inter­
               tribal rendezvous market. The Corporation has delayed consideration of this project due
               to the need to finalize and get approval for the Administrative Plan and to finalize the
                                                              5
J   .   .
                U.S. J)epartment   'of Commerce                                Audit Report STL-14142-1-0001
                Office of Inspector General                                                       AUKust 2001

                initial RLF loan. Need to obtain the matching funds was also cited by the executive
                director as a reason for delaying this project. The Corporation's executive director stated
                that the $100,000 loan from the RCAC would provide the needed administrative and
                matching funds necessary to disburse the entire EDA grant. Subsequent to our draft audit
                report, the RCAC loan was obtained in June 2001.

                Tribal Corporation        Response

                The Corporation generallyconcurredwith the deficienciesas stated in our report.         .
                However, the Corporation stated that subsequent to the end of our fieldwork the noted
                deficiencies were corrected by (1) using administrative funds to hire a fulltime RLF
                program director; (2) completing an EDA approved RLF Administrative Plan;
                (3) obtaining the required matching funds; (4) completing the first RLF loan; and
                (5) initiating a second RLF loan to be completed by September 2001. The Corporation'
                stated that tlJ,eactions taken justify EDA extending the period of award and releasing the
                RLF funds. The Corporation's response is provided, without attachments, in the
                Appendix to this report.

                The Corporation stated that since the RLF program has been operating, beginning in
                January 1999, to June 2001, a total of about $187,000 in operating funds has been
            .   obtained. This amount of fundingis sufficientto fund a full time position to operatethe
                RLF for the coming year. The RLF Administrative Plan, which was approved by the
                Corporation's loan committee and the EDA in April 2001 ; was also approved by the
                Corporation's Board of Directors in June 2001. In addition, the Corporation stated that,
                as of June 20,2001, the Rural Community Assistance Corporation (RCAC) disbursed a
                $100,000 loan that will be used as the matching funds required by the RLF award. The
                Corporation also stated that even though the RLF loan disbursement schedUle was not
                met, the first RLF loan of$100,000 was closed in June 2001, and a second loan for
                $200;000 is expected to close in September 2001.

                OIG Comments

            The hiring of a full time director to operate the RLF and the formal adoption of a RLF
            Administrative Plan by the Corporation's governing board and obtaining EDA's
            approval, adequately addresses our concerns about administrative weaknesses. In
            addition, obtaining the required matching funds and closing the first RLF loan are actions
            that add credibility to the Corporation's RLF program. Based upon the achievement of
            key objectives, such as hiring an experienced program director, developing an EDA
            approved Administrative Plan, obtaining matching funds, and closing of the first RLF
            loan, we will withdraw our draft report recommendation to terminate the award and
            recommend instead that EDA extend the award period. However, due to the
            Corporation's past record of two and a half years of nonperformance, we will recommend
            that EDA closely monitor the Corporation's actions.

                                                             6
.. -- - -- ..                                                ..'.




       "        . .
                      u.s. Department of Commerce                                   Audit Report STL­ 14142-1-0001
                      OffICeof Inspector General                                                       August 2001

                      RLF GRANT SHOULD BE CLOSELY MONITORED

                      The Corporation's efforts to increase economic development on tribal lands have not
                      been successful due to the lengthy delays in getting the RLF operating. Although
                      positive actions have occurred in June 2001, such as the approval of the Administrative
                      Plan, obtaining matching funds, and the closing of the initial RLF loan, the basic purpose
                      of the RLF program has not been achieved. The RLF program has not met the required
                      EDA grant disbursement requirements in the past two and a half years since the award.

                      EDA's RLF Standard Termsand COnditions,SectionC.II, providesthat EDA may
                      tenninate any grant based on the recipient's failureto complywith grant conditions. The
                      Corporationhas made significantprogressin meetinggrant requirementsonly in the past
                      severalmonths. The grant is scheduledto expireon September30,2001, ifEDA does
                      not approve a grant extension. Withouta grant extension,the risk that the Corporation
                      may make imprudent, ill considered,or other questionableloansin order to utilize the
                      grant fundsprior to the grant expirationdate remainsrelativelyhigh.
                      RECOMMENDATION

                      We reCommendthat Economic DevelopmentAdministration'sSeattleRegional Director
                      extend the EDA award for one year, and closelymonitor the Corporation's RLF grant
                      programto ensure that future loans adhereto RLFprogramrequirementsand
                      disbursementtime schedules. Shouldthe Corporationfail to meet RLF program
                      requirements,we recommendthat the Directorimmediatelyact to terminate the program
                      and deobligate any remaining RLF grant funds.


                      Q.          c;:J.Jr­
                                                                    ~rt4'Of
                      David Sheppard                    Date
                      Acting Regional Inspector General
                       for Audits




                                                                      7

.__on _-_0­




                              '"                                                 -.
      !:i;    . '!._.-                                       -   )                             --   -     ­
                                                                                                    APPENDIX- ­
                                                                                                    Page 1 of?
                                                     Affiliated Tribes of Northwest Indians
                                                                 Economic-Development Corporation
                                                                                          :-   I




                          June 28~ 2001

                          Ray McIntos~   Regional h.1spector _General

                          OfficeofJ;nspectorGeneral        ­

                          United States Department ofCominerce-                       ~- !

                          915 Seconq Avenue~ Rooql3062           - .­

                                                                                      I
                         - SeattI~ W~on          98174
                                                 ,

                          RE: Draft AuditReportNo.S'fL.14142-1-XXXX

                              EDA AwardNo. 01-39-03859         -     ­


                          Dear Mr. McIntosh:
                                                                   -                          -
                          ~Wt:.
                              herewith respectfully sUbmitour-reSponse to)heaforementioned Dr8,ft Audit Report.
                          In the respo~ we have dOcumentedthe events-that o_ccurredafter the field work for the
                          audit was -conclud~ which mitigate the deficiericies noted. -Wehave also given         ­
                          explanations for any concerns ofthe-Ip.spector-Gen"etaI-identifiedin the audit. In our
                         -opinio~ consid~tion of the informauon provided will materially affect the conclusion
                          that was reached.             --                                --

                          I wish.to note that Mr.-RichSugiID~ who performedthe field-wo~ was professional
                          and respectful-in every way. We-always welcome opportUnities for us to learn how we
                                                         .



                          can improveour organization~d wiIlcertainIyl>enefitfrom-thisexperience. Shouldyou
                          ~equireanythingmore of ~ pleasecallme at 2()6.;.~42~5115~




                   ~      J. Gregory Stamp     -­

                         -Director ofBatiking and F~ciaI         Services





                                                                                      .
                                                   - 1~130~idvaleAve. N., Suite C . S~reline. WA 9~133
                                          (206) 542-51151542-5095 -Fax (206) 542-4096 Toll Free: 1-866-222-ATNI
'"     ..'   --....	                                                                                                               ...   ""'"   '-"'"

     "''''h_..                  ......       .. ..




                 ..       " .
                      .   .
                                                                                                                   ABBENDIX
                                                                                                                   Page 2 of?

                                                                       -Affiliated Tribes :ofNorthwest    Indians
                                                                               EconomicDevelopmentCorporation




                                      .                                      ­

                                Affiliated Tn1>esof Northwest Indians - EconomicDevelopmentCorporation

                               .Response to Draft Audit Report No. STL-14142-1:-XXXX

                                EDA Award No. 07-39-03859



                                Overview'

                                The Afiili~ed Tribes ofNorthwest IndiaiIsEconomicDevelopmentCorporation(AM-EDC) is
                                a.501 (c) (3) organizationcreated by 54 Tn"besfrom a six state region. Its missionis to-assist
                                Tnoes.in strengtheningtheirTnOaleconomies.'In September.1998the EconomicDevelopment
                                A~tion'(EDA).          a~ded gnint # 07-3-9-03859to provide.theinitialcapitalizationofa
                                Tnoal RevolvingLoan Fund. The.grantrequireda
                                                                .                match of$100.ooo in non-Federalfunds.
                                                                                             .
                                             .                                     -.             .                         -'

                                Draft Audit Report No. STL-14 I42,.'I-XXXX dated_May 30. 2001 was received by ATNI-EDC
                                on JUne5.2000. The Inspector Genera}?sOffice identified the following concerns: .
                                                 1) AdministrativeFunds are not adeqwit~                    .

                                         .       2) AdministrativePlan:isnot ~mplete
                                            3)'      Lack of Adniinistrative Conunuity. - -'
                                         -- 4)       Perceived Maiketing Plan Deficiencies                            ­
                                            5)       The 'Corporation CannotaSsw:e theaVa:ilabiliti-of Matching Funds
                                         . 6)        Disb~ent      Requirements not met-     .
                                         .       1} Riskt:1Jat
                                                            FutureLoanD~sions C9uIdbe madeinHaste
                                rh~ Special Award Conditions 'issued as.an attachment to the Fmancial Assistance Award No.
                                07-~9-O38597acknowle4ged these conditions as of the award date, and required that they be
                                satisfi~ prior to any-disbtirsalof funds. .      . .:   .                      .

                                Work began on the administrative plan and fundraj.singafter the January 23.-1999 ATNI EDC
                                B<?ard-~fDirect()r7sworle ses~on detaiIing-thesieps.re.quired ~d peoplerespoDSlole for each
                                component. The Special AWard Conditions 'ha..ve-tak:~considerable time to be me~ given the
                                unique cit~ces          ofworlcing with over 50 Sovereign Tribes o~ a wide geographic area and
                          ;	    with private iristitutionSunfamiliar with Indiari Country or '\YorkirigWiththe complex legal and
                                communityissuestfuitaccompanythis situatioILIn additioi}.The-Corpprationexperienced
                                severalunavoidablechangesof.personncloverthe P¥od. whichdislUptedContinuity.-

                                Iii retrosp~ it appearsthat the ATNI-EDCmay have appliedfor the grant prematurely,wven
                                the time requirementsnee4edto put everythingin place. Bu~ in manyrespects~the existenceof
                                                                                       1                   .

                                                                   .   18130MidvaleAve.N..SuiteC
                                                                                              . .Sho~~.!A 9~1_3~          .-­
                                                   ---   - -   -   -   -   - --   -   -       n   ­        - -- n n - - - -- - --   -   - -- - n - --   -- ---   -- ----   - n- - n -



                                                                                                                                                                                             --   '---'   ..   .-..­

- _hn       -- ...   ­




        ~                ,"   .

                                                                                                                                                                 APPENDIX
                                                                                          -                                                                      Page 3 of              7

                                  the EDA award was a necessaryprerequisiteto obtainingthe,requiredresourcesto developand

                                  implementthe RLF plan. 1Jter~fore.it was necessarythat it be in place prior to begimiingmany

                                  of the processes-requiredfor implementation.


                                  I.G. Finding #1: Administrativfj Funds are not adequate

                                  The original grant proposal estimated that administrative funds of approximately $100.000
                                  would be required to begin.operations.. From the beginning.ofthis'pr-ogram in January. 1999. to
                                  June. 2001. a total of$187,2oo bas been.raised.and conectedto ~d. operating expense, .
                                  .including$21.200 ttom.the Tnl>esthemselves. An additional $70.000 has been C9.mmittedby
                                  the Murdock Foundation, to be diSbursed in the next two years. (See Exbibit # 1, Schedule of
                                  Funding). As of June 6, 200 1. our program officer at the F..B.Heron Foundation stated that ili:e
                              .   Presidentand Staffhad completeda positivereview of our additional$40,000request, resulting
                                  ina recommendation
                                                   to their'Boardforfiuiding.- Anawardis expectedin earlyAugust.Several
                                  other fundingrequestshave been made-whichofferpromise. At this point, these othersare
                                  speculative. The existingfundingis.sufficientto provide fulltimefundingfor the Directorof
                                  Banking's salaryfor the comingy.ear.

                                  Over $100.000of fundinghas come ftomfinancialinstitutions,whichdemonstratesa
                                  considerableamount.of support for our Tnoal RLF conceptttom the private sector. Banks
                                  perceivethat th~RLF willbe beneficialto their efforts in providing:6Dancialresourcesto Tnoal
                                  businesses. Thisis evidencedby the participationof Key Bankin financing$250,000to a Tribe
                                  for their resort expansionas a direct result of our offerto lend$100,000into the project,whichis
                                  a conditionof their loan commitment.                       -        - ­




                              .   Conn.-myto the Draft AuditReport's firidings.these operatingfundgrants were not intendedas a
                                  matchfor the subjectEDA grant fimds.and have not been used as such. The Draft AuditReport
                                  erroneously indicated that $25.000 of these oPerating funds had been designated for the EDA                                                                                    ­
                                  match. .                       -'                                             ­



                                  No EDA funds ttom the.subject award were used or requested for.funding administrative costs.
                                  The non-EDA funded costs allowed the Corpora~on to develop the Administrntive PIaI4 develop
                                  several fun4ing requests. provide Technical AssiStance to Tnoal Businesses and present seminars. .
                                  and worlcshops designed to create a better understanding between banks and Tn"beshelping to
                                  facilitate greater accesS to credit. Technical assistance is a required result of mUyhof the
                                  capacity.building funding.that the Corporation has been granted. It 'also is a prudent business
                                  practice in lending activities. as it creates greater chances for success of the borrower. Although
                                  no loans were made prior to the Draft Audit Report's completion, (our first loan was completed
                                  on June 25. 200 1 after eleven months of n~otiation). this component contnouted to the success
                                  of the economic development efforts of the organization over th€?period.

                                  Additional funding was used in marketing and outreach programs to Tnoes explaining the uses
                                  and benefits of the RLF to Tn"balbusinesses. This outrea~h generated.Loan Requests and .
                                  inquiries about potential funding opportunities totaling $1.100,000 (see schedule. page 6). Not
                                  all of these will be eligible due to funding restrictions or the amount of available funds to lend.
                                  These create significant possibilities for partnering with banks. and/or other RLF's such as


                                                                                                      2

                                                          - u-   -       ---     __n_­


                                                                                                                          --   --- --..   "
           -


     ,..       "   ' .

:

                                                                                              APPENDIX
                                                    -                                Page40f7
                    CascadiaFundto addressthesecapitalneeds.. Thisoutreachalso~isted Tribesin finding
                    conventionalsourcesof credi~which in itself:' is,a measureof successfor the program.


                    I.G Finding #2: Administrative. 'Plan is not complete

                    The Corporation developed its AdIDinistrativePlan over the course of approximately one year
                    .beginning~ January 1999folloWingthe ATNI EpC Board of Director's meetingimmediately
                    followingthe EDA Award. The planwas cpmpietedin draft form in Fall of 1999. It was-not ­
                    submittedto EDA for approvaluntil Spring2001 becausewe had not yet metmat~ funding
                    requirements.Whenmatchfun~g was secured and fundingof our first loan becam~imminen~­
                    the AdministrativePlan was submittedto EDA for approval. It was foUndto containsome
                     deficiencies;wbichwere corrected. The Plan Wasapprovedby the EDA on April25, 2001 (see
                     attachedExhibit#2 [EDAApprovalLetter]). The AdministrativePlan was approvedbythe-RLF
                    Loan committeeat the end of Ap~ 2001 and-theATNI-EDCBoard of Directors(see attached
                    Exlu1>it#3 ) in June2001.                                     .

                    As identified.in theDraft Audit Report, rapid and successiveturnover of staffcontributedto
                    delaysin the RLF's development. It shouldbe noted that the reasonsfor this rapidturnoverwere
                    as a resultof significantcareer opportunitiesbecomingavailableto the incumbents(m one ca$ej
                    appomtmentto a WhiteHouse positio~ in another as a senior~ecutive at the BonnevillePower
                    Administration(BPA» and not.as a result of inadequacy,incompetenceor instabilityof the EDC
                    Board or Corporation. In the new positionsthat the formerEDC employeesaccepted.these
                    Tnl>almemberswere ableto contnl>uteto the economicdevelopmentefforts ofTtibes on a
                    nationallevel. Theirdecisionsto leave our organiza~onmade more senseftom the standpointof
                    Tnl>aIbenefi~rather than stayingto ensure continuityof the RLF program.


                    I. G. Finding #3: Lack of Administrative Continuity
                    TheDraft AuditReport indicatesthat "The lack of administrativecontinuityhas limitedthe
                    progressof the RLF and may continueto delaythe prograniin the future."In Janmuy, 2001, the
                    ATNIEDC Board begana regionalsearchfor a fulltImebankingprofessiona}for the ATNIRLF-
                    program. A commerciallenderwho held his last positionfor 17yearswas hired.8featly
                    reducingthe likelihoodof continueddelays,or administrativeinstability. This indivi~ualhas
                    manageda commercialloan officeof a localb~ aridwas directlyresponsiblefor loan            ­

                    generationtbat achieved profitability for his unit within one year of Start-up- He was respoDSll>le
                    for all other facets of the unit including financial management. His skills and 'drive will greatly
                    assist oW"program in being successful. (see attached Exlul>it# 4.[resume]) This position is
                    currently funded full time fto~ grants received. .       -     .




                    I. G Finding #4: Perceived
                                            . Marketing Plan Deficienc!es
                    The target market of the ATNI-EDCRLF is identifiedirithe AdministrativePlan as our-54
                    memberTnoes' TnoaIlyownedBusinesses.on or near Reservations,and Indianownedprivate
                    businessesthat serviceTribalEnterprises. The need for creditby these businessesis great
                                                                  3
h___,_,-,   .                                                                                                                 ..,.




      ...       .'   .   ­





.'



                                                                                                    APPENDIX

                                                                                     .     .        PageSof7

                                                                                                         .


                       Because our member Tn"besare spread primarily over three states (WA, OR, ID). with additional
                       members on three other Northwest states (AX. MT. CA). personal contact with the TnDes'

                       Economic.Development personnel rather than advertising is most effective in marketing our

                     . program. These individu~ know what is.going on business-wise within the Tn"bes.and often

                      ,are directly invowed in management of-Tribal enterprises. Asa member organizatiop, we also
                       have other opportunities to communiCate with Tnballeaders. including at our thrice-yearly. .
                       working conferen~. These con(etences are attended by Tnl>alCouncil members from each
                         memberTnDe.                       .




                         I. G.Finding #5) The Corporation cannot asSure the availability o.f

                         Matching Funds                                               .


                         As stated in the SpeciaiAward Conditions.paragraph J.. issuedas an attachmentto the VmanciaI
                         Assistance Award No. 07-39~03859 dated September 1998. "Recipient's cash contnoution JIlU~
                     .   be available at the time needed forloan closing(s)." This condition ~ been met.as oflune 20..
                         ~001. wiJh the disbursement of non-federal funds ITomthe Rural CommUnityAssistance'         .
                         COrporation (RCAC) (see attached Exhibit # 5 [copy of Commitment letter. copy of wire]). A
                         previous 'commitment had been ma4eby.RCAC~ whiChrequired additional financial
                         commitment ITomMember Tnl>estotaling $46.000 more that the $21.509 that was raised ITom
                         ATNI members ThroUgh negotiation that spanned 18 months. this condition of the comriUtment
                         was eventually dropped by RCAC in the CUITentfunding agreement.                                  '




                         Additional sources of capitalizing the RLF are beingpursu~ which include FIrst.NatioDs
                         Oweesta COrporation (funding of$100.000 expected August. 2001) (see attachment # 6
                         [Oweesta. Letter])~ USDA Intermediary Relending Program. the (DFIFund, and Banks. Often a
                         criterion for an award 'of funds is the demonstration of a successful -lendingprogram. ,We ~e just
                         now entering that phase and expect to be successful in capitalizing our fuD.dto a much larger
                         degree as a result of completing our fu:stloan in June. 200 I. The EVA. aWard is a critical '
                         component to our succesS in growing the Loan Fund.

                         A $25.000bank Lineof Creditwas ,arrangedby the .corporation to use as a matchfor the RLF's
                         first loaD.in the eventthat RCAC fundswere not availiibletoprovidefor timelyclosingand
                         disbursement.In that event,the'credit linewouldhave been repaidITOmthe fundingof the
                         RCAC. Astatement of the ExecutiveDiI:ector~     s referencingallocationof $25.000of a $40.000­
                         operatinggrant toward matchingfundswas taken out of context. 11i~ fundsCQUldbealloCated
                         as matchingfundsshouldeitherthe Line of Creditor RCAC fundingnot have beenavailableat
                         the time requiredfor timelyclosingof the first loan. This was meantto demonstrateoUr
                         resourcefulnessand abilityto developcontipgencyplans.                 .       '
                                                                    /




                         I..GFinding #6:.Dispursement Requirements                       No.t Met
                         The RLF has not met the RLF ,Standard Temis .and Condition~s requirement that funds be drawn
                         for lending at a rate of500.lowithin 18 months and 80% within two yeep-s.. It is unlikely to.reach
                         1000.10within the three years ending September 30.2001. The reasons listed above all explain
                         why this condition has not been met. However ~ stated in the Administrative Guidelines. the
                         EDA alloWsflexIbilityin these requirements especially to economically depressed areas.
                                                                          4
                          ~.­



                                                                                                                     .   h '"
-<f        ."     .



                                                                                            APPENIJIX
                                                     .                                      Page 1 of 7
                (EDA)     ~                  r	
                                become tenuous with the issuance of the Draft Audit Report. DiscussionS are On­
                going with the following:                      1
           r.




                                                                                                             . --1

           Of the fiveabove,onlythe first three are likelyto reSultin any immediateloan activity,but this
           totals $500,000,whichexceeds our current EDA fundingbase. The "closedate" is whenwe
           would expectthe loan to close but does not mean we have approvedthe loanor receivedall of
           the requiredinformation.TIielast two are'not far-enoughthrough the planningprocessto be able
      .	   t9 estimate the required funding date. Contrary to the Draft Audit Report's suggestioQ.that we
           maymakeimprudentor ill-consid~redloans, this situationnot onlyallowsa highdegreeof
           selectivify,.itforcesus to choose onIythe best deals.

           Conclusion: Evidence Supports Continuation of Grant.

           The evidencepresentedaboveindicates that all of the conditionsof the grant requirementshave
           bee~       ~
                     the programis operatio~ has o~rating fundsavailable~and has competentstaff.
           Additionally,the creditQ.eedsin Indian Country continue.to be largelyunmet. Duringthe period
           the COfPorationhas made contributionsto economicdevelop~ent on Tnoallands by proViding
           technicalassistanceand education to both Tn"besand Banks. The'RLF is now in an exCellent
           positionto 'utiliZethe tremendousamount of work.and energyspentin puttingthe progrnm
           togetherbyfinallymakingloans, and leveragingthis assistanCein helpingprivatebanksto lend
           additio~ amounts~oTnOes. The funds can easilybe drawnwithina one-yearextended
           expiration,and certainlyWithinthe remainIngtwo years allowedby law. BaSedupon the
           docUmentedevidence, most of which was unavailableto
                                                      .           the Inspector General's
                                                                                       .
 Office'atthe
           timeof the aud~'we respectfully~eqUestthat the Recommendationof Terminationbe

            abandoned,and a Recommendationof ContiriuedFundingbe made.





                                                                   6	                               -.--=-   -­
